     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106

February 28, 2011

Report Number: A-07-10-00336

Ms. Jared A. Adair
Senior Vice President, Medicare Division
Wisconsin Physicians Service Insurance Corporation
P. O. Box 8190
Madison, WI 53708

Dear Ms. Adair:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of the Pension Segmentation Requirements for the
Managerial Pension Plan at Wisconsin Physicians Service Insurance Corporation for the Period
of January 1, 1989, to January 1, 2008. We will forward a copy of this report to the HHS action
official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-10-00336
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Jared Adair

Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Acting Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




     REVIEW OF THE PENSION
SEGMENTATION REQUIREMENTS FOR
THE MANAGERIAL PENSION PLAN AT
 WISCONSIN PHYSICIANS SERVICE
INSURANCE CORPORATION FOR THE
   PERIOD OF JANUARY 1, 1989,
       TO JANUARY 1, 2008



                        Daniel R. Levinson
                         Inspector General

                          February 2011
                          A-07-10-00336
                        Office of Inspector General
                                     http://oig.hhs.gov
                         _________________________________________

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.
Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.
Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Wisconsin Physicians Service Insurance Corporation (WPS) administered Medicare Part A and
Part B operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS). In addition, WPS also administered Medicare operations under a Medicare
administrative contractors (MAC) contract with CMS.

During the audit period, WPS maintained four separate defined benefit pension plans. This
report will address the pension assets for the Managerial Pension Plan only.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts. The Medicare contracts define a segment and specify the methodology for
the identification and initial allocation of pension assets to the segment. Additionally, the
contracts require Medicare segment assets to be updated for each year after the initial allocation
in accordance with CAS 412 and 413.

Prior Pension Audit Report

We performed a prior pension audit at WPS (A-05-92-00048, issued October 1992), which
brought the actuarial value of Medicare segment pension assets to December 31, 1989. The prior
audit recommended that WPS increase its actuarial value of Medicare segment pension assets by
$303,867 and, as a result, recognize $1,554,060 as the Medicare segment pension assets as of
January 1, 1989.

Although our prior audit recommended an asset adjustment as of January 1, 1989, that audit
reported assets as of December 31, 1989. Therefore, we used December 31, 1989, as the starting
date of this current audit period. However, because the prior audit tied its recommended asset
adjustment to January 1, 1989, for purposes of this report we are specifying January 1, 1989, in
our objective and findings.

OBJECTIVE

Our objective was to determine whether WPS complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   •   implementing the prior audit recommendation and




                                                 i
   •   updating the Medicare segment’s pension assets from January 1, 1989, to
       January 1, 2008.

SUMMARY OF FINDING

WPS properly implemented the prior audit recommendation; however, WPS did not always
comply with Federal requirements and the Medicare contracts’ pension segmentation
requirements when updating Medicare segment assets from January 1, 1989, to January 1, 2008.
WPS identified Medicare segment pension assets of $13,423,455; however, we determined that
the Medicare segment pension assets were $11,078,559 as of January 1, 2008. As a result, WPS
overstated the Medicare segment pension assets by $2,344,896 as of January 1, 2008.

RECOMMENDATION

We recommend that WPS decrease the Medicare segment pension assets as of January 1, 2008,
by $2,344,896 and recognize $11,078,559 as the Medicare segment’s pension assets.

AUDITEE COMMENTS

In written comments on our draft report, WPS said that the Medicare segment assets specified in
our draft report excluded some additional Medicare segment terminated vested employees, and
added that, subsequent to the issuance of our draft report, it had provided us with additional
documentation to identify those employees. With these requested revisions in mind, WPS
agreed that the Medicare segment assets as of January 1, 2008, should be $11,078,559.

WPS’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing WPS’s comments, we revised Medicare segment assets based upon the
additional documentation regarding Medicare segment terminated vested employees that WPS
had provided to us after we had issued our draft report. We incorporated this adjustment into this
final report and revised the relevant findings and recommendation accordingly.

We maintain that our findings and recommendation, as modified, are valid.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page
INTRODUCTION......................................................................................................................... 1

          BACKGROUND ................................................................................................................ 1
              Wisconsin Physicians Service Insurance Corporation and Medicare ..................... 1
              Federal Requirements ............................................................................................. 1
              Pension Segmentation ............................................................................................. 1
              Prior Pension Audit Report ..................................................................................... 2

          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................. 2
               Objective ................................................................................................................. 2
               Scope ....................................................................................................................... 2
               Methodology ........................................................................................................... 3
FINDINGS AND RECOMMENDATION.................................................................................. 4

          PRIOR AUDIT RECOMMENDATION ............................................................................ 4

          UPDATE OF MEDICARE SEGMENT PENSION ASSETS............................................ 4
              Federal Requirements ............................................................................................. 4
              Contributions and Prepayment Credits Overstated ................................................. 5
              Benefit Payments Understated ................................................................................ 6
              Net Transfers Into the Medicare Segment Overstated ............................................ 6
              Earnings, Net Expenses Overstated ........................................................................ 6

          RECOMMENDATION ...................................................................................................... 6

          AUDITEE COMMENTS.................................................................................................... 7

          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................... 7

APPENDIXES

          A: WISCONSIN PHYSICIANS SERVICE INSURANCE CORPORATION
             STATEMENT OF MARKET VALUE OF MANAGERIAL PENSION PLAN
             ASSETS FOR THE PERIOD JANUARY 1, 1989, TO JANUARY 1, 2008

          B: AUDITEE COMMENTS




                                                                     iii
                Glossary of Abbreviations and Acronyms

CAS   Cost Accounting Standards
CMS   Centers for Medicare & Medicaid Services
FAR   Federal Acquisition Regulation
MAC   Medicare administrative contractor
WAV   weighted average value
WPS   Wisconsin Physicians Service Insurance Corporation




                                    iv
                                              INTRODUCTION

BACKGROUND

Wisconsin Physicians Service Insurance Corporation and Medicare

Wisconsin Physicians Service Insurance Corporation (WPS) administered Medicare Part A and
Part B operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS). With the award to WPS of the CMS A/B Medicare administrative contractors
(MAC) 1 Jurisdiction 5 contract, WPS acquired Mutual of Omaha’s Medicare Part A business
segment in November 2007.

During the audit period, WPS had four defined benefit pension plans. The Employees’ Pension
Plan and the Managerial Pension Plan were ongoing pension plans that we reviewed in the prior
audit discussed below. On August 1, 1998, WPS established two additional defined benefit
pension plans: the Represented Employees’ Retirement Income Plan and the Managerial
Retirement Program for Michigan, Illinois, and Minnesota Employees of WPS. Effective
December 31, 2007, WPS merged the Represented Employees’ Retirement Income Plan and the
Managerial Retirement Program for Michigan, Illinois, and Minnesota Employees of WPS and
renamed the plan WPS Managerial Retirement Program for Selected Locations. This report will
address the pension assets for the Managerial Pension Plan only.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation (FAR), Cost Accounting Standards (CAS), and Medicare
contracts.

Federal Requirements

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts. The Medicare contracts define a segment and specify the methodology for

1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or
Medicare administrative contractor, whichever is applicable.

                                                         1
the identification and initial allocation of pension assets to the segment. Additionally, the
contracts require Medicare segment assets to be updated for each year after the initial allocation
in accordance with CAS 412 and 413. In claiming costs, contractors must follow cost
reimbursement principles contained in the FAR, CAS, and the Medicare contracts.

Prior Pension Audit Report

We performed a prior pension audit at WPS (A-05-92-00048, issued October 1992), which
brought the Medicare segment’s actuarial value of assets to December 31, 1989. The prior audit
found that WPS understated the actuarial value of the Medicare segment’s pension assets by
$303,867 as of January 1, 1989, and recommended that WPS recognize $1,554,060 as the
actuarial value of Medicare segment pension assets and, as a result, recognize $1,702,125 2 as the
market value of the Medicare segment pension assets as of January 1, 1989.

Although our prior audit recommended an asset adjustment as of January 1, 1989, that audit
reported assets as of December 31, 1989. Therefore, we used December 31, 1989, as the starting
date of this current audit period. However, because the prior audit tied its recommended asset
adjustment to January 1, 1989, for purposes of this report we are specifying January 1, 1989, in
our objective and findings.

OBJECTIVE, SCOPE AND METHODOLOGY

Objective

Our objective was to determine whether WPS complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

    •    implementing the prior audit recommendation and

    •    updating the Medicare segment’s pension assets from January 1, 1989, to
         January 1, 2008.

Scope

We reviewed WPS’s implementation of the prior audit recommendation identification of its
Medicare segment, and its update of Medicare segment assets from December 31, 1989, to
January 1, 2008. For the reasons stated above, we did not audit assets between January 1, 1989
(the date associated with the prior audit’s recommendation), and December 31, 1989.

Achieving our objective did not require us to review WPS’s overall internal control structure.
We reviewed controls relating to the identification of the Medicare segment and the update of the
segment’s assets to ensure adherence to the Medicare contracts, CAS 412, and CAS 413.


2
 Although our prior report used the actuarial value of assets, our current audit used the market value of assets. The
corresponding market value of assets as of January 1, 1989, was $1,702,125 (as reflected in the initial entry of the
Appendix).

                                                          2
We performed fieldwork at WPS’s office in Madison, Wisconsin, during July 2009.

Methodology

To accomplish our objective, we did the following:

    •    We reviewed the applicable portions of the FAR, CAS, and the Medicare contracts.

    •    We reviewed the annual actuarial valuation reports prepared by WPS’s actuarial
         consulting firms, which included the pension plan’s assets, liabilities, normal costs,
         contributions, benefit payments, investment earnings, and administrative expenses. We
         used this information to calculate the Medicare segment assets.

    •    We obtained and reviewed the pension plan documents and Department of Labor/Internal
         Revenue Service (IRS) Forms 5500 used in calculating the Medicare segment assets.

    •    We interviewed WPS staff responsible for identifying the Medicare segment to determine
         whether the segment was properly identified in accordance with the Medicare contracts.

    •    We reviewed WPS’s accounting records to verify the segment identification and benefit
         payments made to the Medicare segment.

    •    We reviewed the prior pension audit performed at WPS (A-05-92-00048) to determine
         the beginning value of assets and the actuarial value of assets from January 1, 1989, to
         December, 31, 1989. 3

    •    We provided the CMS Office of the Actuary with the actuarial information necessary for
         it to calculate the Medicare segment pension assets (at market value) from
         December 31, 1989, to January 1, 2008.

    •    We reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with our audit of WPS’s pension costs claimed for
Medicare reimbursement, to be issued in a subsequent report, and used the information obtained
during that audit in this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.



3
 We made this determination as a necessary preliminary step to the calculation of the market value of assets but, as
mentioned earlier, we did not audit the assets from January 1, 1989, to December 31, 1989.

                                                         3
                          FINDINGS AND RECOMMENDATION

WPS properly implemented the prior audit recommendation; however, WPS did not always
comply with Federal requirements and the Medicare contracts’ pension segmentation
requirements when updating Medicare segment assets from January 1, 1989, to January 1, 2008.
WPS identified Medicare segment pension assets of $13,423,455; however, we determined that
the Medicare segment pension assets were $11,078,559 as of January 1, 2008. As a result, WPS
overstated the Medicare segment pension assets by $2,344,896 as of January 1, 2008.

Appendix A presents details on the Medicare segment’s pension assets from January 1, 1989, to
January 1, 2008, as determined during our audit. Table 1 summarizes the audit adjustment
required to update Medicare segment pension assets in accordance with Federal requirements.

                     Table 1: Summary of Audit Adjustments
                                           Per Audit     Per WPS                  Difference
 Prior Audit Recommendation                 $1,702,125 $1,702,125                          $0

 Update of Medicare Segment Assets
   Contributions and Prepayment Credits          3,132,266   4,490,526 (1,358,260)
   Benefit Payments                            (2,324,963) (2,295,512)     (29,451)
   Net Transfers                                    66,093     529,665    (463,572)
   Earnings, Net Expenses                        8,141,832   8,635,445    (493,613)
 Under/(Over)statement of Medicare Pension Segment Assets              ($2,344,896)

PRIOR AUDIT RECOMMENDATION

WPS properly implemented the prior audit recommendation (A-05-92-00048) which
recommended that WPS recognize $1,554,060 as the Medicare segment actuarial value of
pension assets as of January 1, 1989. The corresponding market value of assets for the Medicare
segment was $1,702,125 as of January 1, 1989.

UPDATE OF MEDICARE SEGMENT PENSION ASSETS

WPS did not always comply with Federal requirements and the Medicare contracts’ pension
segmentation requirements when updating Medicare segment assets from January 1, 1989.

Federal Requirements

The Medicare contracts identify a Medicare segment as:

       … any organizational component of the contractor, such as a division,
       department, or other similar subdivision, having a significant degree of
       responsibility and accountability for the Medicare contract/agreement, in which:




                                               4
               1. The majority of the salary dollars is allocated to the Medicare
                  agreement/contract; or,

               2. Less than a majority of the salary dollars are charged to the Medicare
                  agreement/contract, and these salary dollars represent 40% or more of
                  the total salary dollars charged to the Medicare agreement/contract.

Furthermore, the Medicare contracts state that “… the pension assets allocated to each Medicare
Segment shall be adjusted in accordance with CAS 413.50(c)(7).” CAS 413.50(c)(7) requires
that the asset base be adjusted by contributions, permitted unfunded accruals, income, benefit
payments, and expenses. The CAS requires expenses to be allocated among the segments in
proportion to the investment earnings. In addition, CAS 413.50(c)(8) requires an adjustment to
be made for transfers (participants who enter or leave the segment) if the transfers materially
affect the segment’s ratio of pension plan assets to actuarial accrued liabilities.

For plan years beginning on or before March 30, 1995, the CAS requires investment income and
expenses to be allocated among segments in proportion to the beginning-of-year asset value. For
plan years beginning after March 30, 1995, the CAS requires investment income and expenses to
be allocated among segments based on the ratio of the segment’s weighted average value (WAV)
of assets to total company WAV of assets.

Furthermore, CAS 412.50(a)(4) requires that contributions in excess of the pension cost assigned
to the period be recognized as prepayment credits and accumulated at the assumed valuation
interest rate until applied to future period costs. Prepayment credits that have not been applied to
fund pension costs are excluded from the value of assets used to compute pension costs.

Contributions and Prepayment Credits Overstated

WPS overstated contributions and prepayment credits by $1,358,260 for the Medicare segment
because it allocated contributions to the Medicare segment in excess of the assignable pension
costs. As a result, WPS overstated the Medicare segment pension assets by $1,358,260.

The audited contributions and prepayment credits are based on the assignable pension costs. In
compliance with the CAS, we applied prepayment credits first to current-year assignable pension
costs because the credits were available at the beginning of the year, and then updated any
remaining credits with interest to the next measurement (valuation) date. We then allocated
contributions as needed to assigned pension costs as of the date of deposit.

A comparison of WPS’s and our calculations of contributions and prepayment credits appears in
Table 2.




                                                 5
                       Table 2: Contributions and Prepayment Credits
                                Per Audit    Per WPS     Difference
                        2003       351,093    1,005,768    (654,675)
                        2004       496,381      715,760    (219,379)
                        2005       698,604      789,146      (90,542)
                        2006       782,280      896,541    (114,261)
                        2007       803,908    1,083,311    (279,403)
                       Total     3,132,266    4,490,526  (1,358,260)

Benefit Payments Understated

WPS understated benefit payments by $29,451 because of differences in the identification of the
Medicare segment participants. In addition, WPS did not base the Medicare segment benefit
payment on the actual payments made to Medicare segment participants. As a result, the
Medicare segment pension assets were overstated by $29,451.

Net Transfers Into the Medicare Segment Overstated

WPS overstated net transfers in of the Medicare segment by $463,572 primarily because of
differences in identification of the Medicare segment participants. This overstatement of the net
transfer adjustment resulted in an overstatement of the Medicare segment assets by $463,572.

A comparison of WPS’s and our calculations of net transfers into the Medicare segment appears
in Table 3.

                      Table 3: Net Transfers into the Medicare Segment
                                Per WPS       Per Audit     Difference
                       2002              0      (123,049)       123,049
                       2005      (123,077)         31,339     (154,416)
                       2006        427,664       (46,784)       474,448
                       2007        225,078        204,587        20,491
                      Total        529,665         66,093       463,572

Earnings, Net Expenses Overstated

WPS overstated investment earnings, less administrative expenses, by $493,613 for the Medicare
segment because it used incorrect contribution, prepayment credit, benefit payment, and net
transfer amounts (all discussed above) to develop the Medicare segment pension asset base. In
our audited update, we allocated earnings and expenses based on the applicable CAS
requirements.

RECOMMENDATION

We recommend that WPS decrease the Medicare segment pension assets as of January 1, 2008,
by $2,344,896 and recognize $11,078,559 as the Medicare segment’s pension assets.

                                                6
AUDITEE COMMENTS

In written comments on our draft report, WPS agreed with our findings after requesting that
revisions be made to the identification of Medicare segment terminated vested employees that
had been conveyed in our draft report.

Specifically, WPS stated:

       The Medicare segment assets as of January 1, 2008 that were reported in the draft
       report excluded some additional Medicare segment terminated vested employees.
       Subsequent to the issuance of the draft report, WPS provided the OIG [Office of
       Inspector General] with additional documentation in order to identify the
       Medicare segment terminated vested employees. WPS agrees that after the
       revisions the Medicare segment pension assets as of January 1, 2008, should be
       $11,078,559.

WPS’s comments are included in their entirety as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing WPS’s comments, we revised Medicare segment assets based upon the
additional documentation regarding the Medicare segment terminated vested employees that
WPS had provided to us after we had issued our draft report. We incorporated this adjustment
into this final report and revised the relevant findings and recommendation accordingly.

We maintain that our findings and recommendation, as modified, are valid.




                                               7
APPENDIXES
                                                                                             Page I of5
              APPENDIX A: WISCONSIN PHYSICIANS SERVICE INSURANCE CORPORATION 

               STATEMENT OF MARKET VALUE 01<' MANAGERIAL PENSION PLAN ASSETS 

                       FOR THE PERIOD JANUARY I, 1989, TO JANUARY I, 2008 


               Description              Total Company       "Other" Segment     Medicare Segment

Assets January I, 1989                      $20,674,607          $18,972,482          $1,702,125

PrepaYITl~nt C!~.~its                                 0                    0                   0
Contributions                                         0                    0                   0
Earnings                                      5,021,628            4,608,201             413,427
Benefit Payments                               (324,360)            (272,139)            (52,221)
~E)(penses.                                           0                    0                   0

Assets December 31, 1989                    $25,371,875          $23,308,544          $2,063,331

Prepayment Credits                                    0                    0                   0
Contributions                                         0                    0                   0
Earnings                                        593,975              545,671              48,304
Benefit Payments                               (352,670)            (295,987)            (56,683)
Expenses                                        (18,164)             (16,687)             (1,477)

Assets January I, 1991                      $25,595,016          $23,541,541          $2,053,475

PrepaYl11ent Credits ...                              0                    0                   0
Contributions                                         0                    0                   0
Earnings                                      7,727,303            7,107,345             619,958
Benefit Payments                               (430,200)            (352,948)            (77,252)
Expenses                                              0                    0                   0

Assets January I, 1992                      $32,892,119          $30,295,938          $2,596,181

Prepayment Credits                                    0                    0                   0
Contributions                                         0                    0                   0
Earnings                                      3,693,674            3,402,132             291,542
BenefilPayments                                (511,105)            (423,150)            (87,955)
Expenses                                              0                    0

Assets January 1, 1993                      $36,074,688          $33,274,920          $2,799,768

Prepayment Credits                                    0                    0                   0
Contributions                                         0                    0                   0
Earnings                                      5,488,947            5,062,948             425,999
Benefit Payments                               (547,766)            (452,825)            (94,941 )
Expenses                                               0                   0

Assets January I, 1994                      $41,015,869          $37,885,043          $3,130,826

fr.epaY!ll~nt C!:~dits                                0                    0                   0
Contributions                                         0                    0                   0
Earnings                                     (1,217,925)          (1,124,958)            (92,967)
Benefit Payments                               (685,995)            (588,528)            (97,467)
Expenses                                               0                   0                   0

Assets January 1, 1995                      $39, III ,949        $36,171,557          $2,940,392
                                                                                       Page 2 of5


             Description       Total Company        "Other" Segment       Medicare Segment
                           ,


Ass~ts J~uary1,   1995             $39,111,949           $36,171,557            $2,940,392

Prepayment Credits                           0                     0                     0
Contributions                                0                     0                     0
Earnings                            11,632,855            10,758,310               874,545
Benefit Payments           ;
                                    (1,366,026)           (1,246,473)             (119,553)
Expenses                                      0                    0

Assets January 1, 1996             $49,378,778           $45,683,394            $3,695,384

Prepayment Credits                           0'                    0                     0
Contributions                                0                     0                     0
Earnings                             7,287,115             6,740,872               546,243
Benefit Payments                    (1,785,404)           (1,663,674)             (121,730)
Expenses                                      0                    0

Assets January I, 1997             $54,880,489           $50,760,592            $4,119,897

Prepayment Credits                           0                     0                     0
Contributions                                0                     0                     0
Earnings                            13,139,106            12,148,890               990,216
Benefit Payments                    (2,039,464)           (1,918,000)             (121,464)
Expenses                                      0                    0                     0

AssetsJ anuary 1, 1998             $65,980,131           $60,991,482            $4,988,649

Prepayment Credits                            0                    0                      0
Contributions                                 0                    0                      0
Earnings                            13,037,477            12,049,273               988,204
                           ,                              (1,895,421) ,
Benefit Payments                    (2,023 1908);                                 ( 128,487)
Expenses                              (393,091)             (363,296)               (29,795)

Assets January 1, 1999             $76,600,609 .         $70,782,038 ,          $5,818,571

Prepayment Credits                           0                     0                     0
Contributions                                0                     0                     0
Earnings                            14,133,877            13,057,290             1,076,587
Benefit Payments                    (2,073,089)           (1,947,480)             (125,609)
Expenses                              (473,169)             (437,127)              (36,042)

Assets January 1,2000              $88,188,228           $81,454,721            $6,733,507
                                                                                                  Page 3 of5

                  Description              Total Company        "Other" Segment      Medicare Segment

     Assets January 1,2000                     $88,188,228           $81,454,721           $6,733,507
I'
     Prepayment Credits                                  0                      0                   0
     Contributions                                       0                      0                   0
     Earnings                                   (1,114,209)           (1,028,927)             (85,282)
     Benefit Payments                           (2,108,134)           (1,979,63,8)           (128,496)
     Expenses                                     (516,034)             (476,537)             (39,497)

     Assets January 1,2001                     $84,449,851           $77,969,619           $6,480,232

     Prepayment Credits                                   0                    0                    0
     Contributions                                        0                    0                    0
     Earnings                                   (7,868,457)           (7,262,397)            (606,060)
     Benefit PaYlllents                         (2,\ 90,380)          (2,070,542)            (119,838)
     Expenses                                     (486,821)             (449,324)             (37,497)

     Assets JanuaryI, 2002                     $73,904,193           $68,187,356           $5,716,837

     Prepayment Credits                                   0                     0                   0
     Contributions                                        0                     0                   0
     Earnings                                    (5,225,521 )         (4,820,303)            (405,218)
     Benefit Payments                           (2,277,830)           (2 11}9,475)           (148,355)
     Expenses                                      (556,175)            (513,046)             (43,129)
     Transfer                       §L                                    123,049            (123,049)

     Ass(!ts January I, 2003                   $65,844,667           $60,847,581           $4,997,086

     Prepayment Credits                                  0                      0                    0
     Contributions                  ?J..         9,590,306             9,239,213               351,093
     Earnings                                   10,991,5\0            10,169~I 10             822,400
     Benefit Payments                           (2,398,300)           (2,257,798)            (140,502)
                                ,
     Expenses                                     (463,202)             (428,545)             (34,657)

     Assets January 1,2004                     $83,564,981           $77,569,561           $5,995,420

     Prepayment Credits                                  0              (426,427)             426,427
     Contributions                               6,944,000             6,874,046                69,954
     Earnings                                    9,351,968             8,643,979              707,989
     Benefit Payments                           (2,475,407)           (2,322,166)            (\ 53,241)
     Expenses                                     (574,690)             (531,183)             (43,507)

     Assets January 1,2005                     $96,810,852           $89,807,8 \0          $7,003,042
                                                                                                                                   Page 4 of5

                    Description                  .\         Total Company              "Other" Segment            Medicare Segment

      Assets January 1,2005                                       $96,810,852                 $89,807,810                  $7,003,042

      Prepayment Credits                                                    0                    (583,023)                    583,023
      Contributions                          .   \
                                                                    8,618,000                   8,502,419                     115,581
      Earnings                                                      7,011,082                   6,474,240                     536,842
                                                                               \
      Benefit Payments                                             (2,700,099)                 (2,522,167)                   (177,932)
      Expenses                                                       (620,505)                   (572,993)                    (47,512)
      Transfers                                                                                   (31,339)                     31,339

      Assets January 1,2006                                     $109,119,330                $101,074,947                   $8,044,383

      Prepayment Credits                                                    0                    (581,683)                     581,683
      Contributions                                                12,327,000                  12,126,403                      200,597
      Earnings                                                     12,340,862                  11,421,275                     919,587
      Benefit Payments                                             (2,808,340)                 (2,630,350)                   (177,990)
      Expenses                                                              0                           0                           0
      Transfers                                                             0                      46,784                     (46,784)

      Assets January 1,2007                                     $130,978,852                $121,457,376                   $9,521,476

      Prepayment Credits                                                    0                    (755,632)                    755,632
      Contributions                                                14,600,000 .                1~,551,724                      48,276
      Earnings                                                     10,925,208                  10,129,152                     796,056
      Benefit Payments                                             (3,080,592)                 (2,833,124)                   (247,468)
      Expenses                                                              0                           0                           0
      Transfers                                                             0                    (204,587)                    204,587

      Assets January 1,2008                                     $153,423,468                $142,344,909                 $11,078,559
      Per WPS                                         8/        $153,423,468                $140,000,013                 $13,423,455
      Asset Variance                                  9/                  $0                  $2,344,896                 ($2,344,896)



FOOTNOTES

 .lL We determined the Medicare segment pension assets from January 1, 1989, to December 31, 1989, based upon the prior
      pension audit of Wisconsin Physicians Service Insurance Corporation (WPS) (A-05-92-00048). The prior pension audit used
      actuarial value of assets in the report. We determined that WPS implemented the recommendation; therefore, we used the
      corresponding market value of assets. The amounts shown for the "Other" segment represent the difference between the Total
      Company and the Medicare segments. All pension assets in this appendix are shown at market value.

 y. Prepayment credits represent funds available to satisfY future funding requirements and are applied to future funding
      requirements before current year contributions in order to avoid incurring unallowable interest. Prepayment credits are
      transferred to the Medicare segment as needed to cover funding requirements.

 JL   We obtained investment earnings from actuarial valuation reports. We allocated investment earnings based on the market
      value of Medicare assets at the beginning of the plan year after adjustments for prepayment credits and participant transfers.
      For years starting with 1996, we allocated investment earnings based on the ratio of the segment's weighted average value
      (WAV) of assets to total company WA V of assets as required by the Cost Accounting Standards (CAS).

 1L We based the Medicare segment's benefit payments on actual payments to Medicare retirees. We obtained the benefit
      payments from documents provided by WPS.
                                                                                                                                  Page 5 of5

2!.   We allocated administrative expenses to the Medicare segment in proportion to investment earnings.

QJ.. 	 We obtained Total Company contribution amounts from the actuarial valuation reports and Department of LaborlIntemal
      Revenue Service Forms 5500. We allocated Total Company contributions to the Medicare segment based on the ratio of the
      Medicare segment funding target divided by the Total Company funding target. Contributions in excess of the funding targets
      were treated as prepayment credits and accounted for in the "Other" segment until needed to fund pension costs in the future.

11. 	 We identified participant transfers between segments starting in calendar year 2005 by comparing valuation data files provided
      by WPS. In addition, we identified one participant in 2002 who was transferred out of the Medicare segment. Asset transfers
      were equal to the actuarial liability determined under the accrued benefit cost method in accordance with the CAS.
      Furthermore, the CAS requires an adjustment to be made for transfers only if the transfers materially affect the segment's ratio
      of pension plan assets to actuarial accrued liabilities.

fu' 	 We obtained total asset amounts as of January   \,2008, from the actuarial valuation report prepared by WPS's actuarial
      consulting firms.

rz!.. 	 The asset variance represents the difference between our calculation of Medicare segment pension assets and WPS's
      calculation of the Medicare segment pension assets.
                APPENDIX B: AUDITEE COMMENTS 





    CAlIS!
_"'_4__ 1                                                                                      Medicare
                                                      February 11, 2011




   Mr. Patrick J. Cogley , 

   Regiolllll Inspector GCIl6ral for Audit Services 

   HIlS, Office ofAudit Services 

   601 Eqt 12111 Street, Room 429 

   Kansaa City,MO 64106 



   Dear Mr. Cogley;

   This letter is in response to Report Number A...Q7-1 0-00336, the Draft Audit Report
   Review of the Pension Segmentation Requirements for the Managerial Pension Plan at
   WlSCOllsinPhysiciims Se.rvice Inaurance Co~ation fur the Period ofJanuary I, 1989, to
   January 1, 2008.                     .

   The Medicare segment assets as ofJanu.axy 1, 2008 that were reported in the draft 4Oport
   excluded some additional Medicate segment terminated vested. employees. SubseqUent to
   the issuance ofthe draft Tllpart, WPS provided tho OIG with additional documentation in
   order to identify the Medicare segment termfuated vested employees. WPS agrees that
   after the revisions the Medicaro segment pension assoU; as ofJanUllI'}' I, 2008, &boWd be
   $11,078,559.

   Thank: you forilie opportunity to commlll1t, pleaJ;e contact me at (608) 301-2639 01' e­
   mail me at J8red.Adair@wpm.com if you ha.ve any questions.

                                                      Sincertily,


                                                      I Jared A. Adair /

                                                      Jared A Adair
                                                      Senior Vice President
                                                      Medicare




              WIscoosIn Phy8lCfBll6 Sarvice IIl6IlIllllCll CorporaUon serving 89 a eMS Medfcare contOICIOt
              P.O. Box 1787. Madlaon. WI 53701 • Phone 808-221-4111
